 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




                   PUBLIC
                  RELEASE


NATIONAL TELECOMMUNICATIONS
             AND INFORMATION
              ADMINISTRATION

                           Internal Controls Over
                         Bankcard Use Are Sound

       Audit Report No. BTD-11549-9-0001 / September 1999




         Office of Audits, Business and Trade Audits Division
September 1, 1999


MEMORANDUM FOR:               Larry Irving
                              Assistant Secretary for Communications
                               and Information


FROM:                     for Johnnie E. Frazier
                              Inspector General

SUBJECT:                      Internal Controls Over Bankcard Use Are Sound
                              Final Audit Report No. BTD-11549-9-0001

The Office of Inspector General has completed an audit of bankcard use during FY 1998 by the
National Telecommunications and Information Administration. The continued oversight and
review provided by NTIA management, and by staff of the National Institute of Standards and
Technology (NIST) who provide contracting support to NTIA, have resulted in sound internal
controls over NTIA bankcard transactions. We also found that NIST personnel properly
conducted the required annual review of bankcard use. We noted several minor internal control
deficiencies requiring management action as follows:

l      consideration should be given, during the next annual bankcard review, to reducing the
       number of cardholders to further improve internal controls and use existing bankcards
       more efficiently;

l      not all cardholders are storing their credit cards in a secure location; and

l      not all cardholders are receiving the required training or maintaining training
       documentation on site.

Our recommendations to address these concerns are on page 4.

In response to the draft report, NTIA agreed with most of our findings and recommendations.
NTIA requested that we change the title so as to not leave an unnecessary perception that is
unjustified by our findings. We agree and have so changed the title. NTIA also disagrees with
our recommendation to consider reducing the number of cardholders. NTIA believes at this time
that the distribution of cardholders is based on the needs of each program office and has
advantages for management control. NTIA stated that limiting the number of cardholders is not
required, and doing so would decrease the efficiency and effectiveness of the bankcard purchasing
system, reduce its ability to easily maintain purchasing accountability, and possibly unnecessarily
burden those cardholders that remained. For the reasons stated in the draft report and reiterated
U.S. Department of Commerce                                                  Audit Report BTD-11549
Office of Inspector General                                                          September 1999

below, we continue to recommend that NTIA examine the necessity for the total number of
cardholders during the next annual review. NTIA’s complete response to the draft audit report is
attached.

Please provide your audit action plan addressing the recommendations within 60 calendar days, in
accordance with Department Administrative Order 213-5. The plan should be in the format
specified in Exhibit 7 of the DAO. Should you have any questions regarding the preparation of
the audit action plans, please contact Andrew R. Cochran, Director, Business and Trade Audits
Division, at (202) 482-4415. We appreciate the cooperation extended to us by NTIA staff during
the review.

Introduction

In 1986, several agencies, including the Department of Commerce, conducted a pilot project to
evaluate the use of credit cards (the “bankcard”) for small purchases. In 1989, the bankcard was
made available governmentwide through a contract administered by the General Services
Administration. The objectives of the bankcard program are to (1) reduce procurement
administrative costs and improve cash management by expediting and simplifying small purchases
and (2) improve internal controls to eliminate the fraud and abuse present in other small purchase
methods. Bankcard use was facilitated by the Federal Acquisition Streamlining Act of 1994 and
Executive Order 12931, which eliminated some requirements for purchases of $2,500 or less,
known as “micro-purchases,” and encouraged agencies to move the authority to make simple
purchases from procurement offices to program offices.

The Department’s Office of Acquisition Management, which is responsible for overseeing the
management of the program within Commerce, in turn has delegated that authority to the Heads
of Contracting Offices (HCOs). The Chief of the Acquisition and Assistance Division at NIST
serves as the NTIA HCO. That HCO further delegated purchasing authority to NTIA local
approving officials and individual cardholders. NTIA officials are responsible for ensuring that
bankcard usage complies with the applicable regulations, policies, and procedures. The HCO,
approving officials, and cardholders are responsible for ensuring that the program is properly
administered.

Purpose and Scope of Audit

In conjunction with our plan to periodically review Commerce agencies’ use of the bankcards, we
conducted an audit to determine whether NTIA was utilizing its bankcards in accordance with the
Federal Acquisition Regulation, Part 13, “Simplified Acquisition Procedures”; the Commerce
Acquisition Manual, Part 13, “Commerce Purchase Card Procedures,” as revised; and the
Commerce Acquisition Circular 96-01, dated July 1, 1996.


                                                2
U.S. Department of Commerce                                                  Audit Report BTD-11549
Office of Inspector General                                                          September 1999

Our audit covered 1,163 discrete transactions, including credits and charge-backs, made by NTIA
headquarters personnel, in Washington, D.C., during FY 1998. The total amount of the
transactions processed was $682,243, for an average of $587 per transaction. We selected a
random sample of 81 transactions, or 7 percent of the total population of transactions, to test for
errors among cardholder records. This represented a sample size sufficient to find 95 percent of
errors that would likely occur within the sample population. The sample was not stratified, as we
were specifically measuring attributes of the NTIA cardholder transactions.

We reviewed applicable regulations, policies, and procedures; examined documentation,
management reports, and records; and interviewed officials, as deemed necessary. We also
reviewed management reports on bankcard usage prepared by the Commerce Bankcard Center.
We conducted our fieldwork from November 1998 through January 1999 at NTIA headquarters
in Washington, D.C. We analyzed the administrative and accounting internal controls relating to
NTIA’s use of the government purchase card, including controls over the physical security and
authorized use of the bankcards, and the approval, order, and receipt of purchased items.

In conducting our review, we relied on computer-processed data. We tested the accuracy of the
data by tracing it to original source documents and by comparing it to the same data in other
documents. Based on our tests, we concluded that the data was sufficiently reliable for use in
meeting our objectives.

We conducted the audit in accordance with generally accepted government auditing standards and
under authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated May 22, 1980, as amended.

Required Annual Review of Bankcard Activity Was Performed

The Commerce Acquisition Manual Part 13, Chapter 1, charges HCOs with the responsibility for
“...reviewing the Purchase Card Program at least once a year to ensure that cardholders and
cardholder approving officials use internal controls and follow proper procedures.” In response
to this requirement, personnel from NIST performed a management control review of NTIA
bankcard use during the first quarter of calendar year 1998. We found that the review was
thorough, documented, and included all issues for which the office is responsible. The review
concluded that NTIA was in compliance with the requirements of the Commerce Acquisition
Manual and the bankcard program, with minor concerns to be addressed by NTIA officials.

NTIA Should Reassess the Number of Cardholders and
Utilize Potential Purchasing Capacity

During fiscal year 1998, NTIA had 30 cardholders among its 187 headquarters employees, a ratio
of one card for every 6.2 employees. Single purchase and monthly credit limits generally were

                                                 3
U.S. Department of Commerce                                                    Audit Report BTD-11549
Office of Inspector General                                                            September 1999

$2,500 and $10,000, respectively; only one employee had $25,000 single purchase and $25,000
monthly limits under an exception to the usual limits. NTIA cardholders’ purchases averaged
about $22,741 per cardholder. Thus, on average, only 19% of the annual cardholder’s purchasing
power was used during fiscal year 1998. We believe that the number of cardholders is higher than
needed, given the unused purchasing capacity and the administrative burden of maintaining proper
oversight of card use as required by the Commerce Acquisition Manual. A review of the need for
so many cards might result in the reduction of the total number of cards and permit more efficient
utilization of the remaining cards. As discussed above, NTIA did not agree with us in its response
to the draft report, preferring to maintain the current number of cardholders.

Cardholders Should Store Cards in Secure Location

Of 19 NTIA headquarters cardholders we interviewed, 4 had their bankcards in a wallet or purse,
and 4 kept their cards in an unlocked file cabinet or desk. One bankcard was left at home.
According to the Commerce Acquisition Manual, Part 13, Chapter 1, Item 8. c. (10), cardholders
must, “Keep the purchase card in a secure place.” If the purchase card is left in a wallet, purse, or
an unlocked cabinet or desk drawer, there is a risk that the card could be stolen. In its response
to the draft report, NTIA agreed to send reminders about the cardholder responsibilities to
safeguard bankcards.

Cardholders Should Receive Training and Maintain Training Documentation

Part 13, Chapter 1, Item 7 b. of the manual states, “HCOs shall ensure cardholders and cardholder
approving officials review these procedures and view the training video once every two
years....This training could be a standard course or one customized to address unique needs or
characteristics for the purchasing organization.” Of the 19 NTIA cardholders interviewed, all told
us that they had viewed the standard training video for all departmental cardholders. However,
four told us that they had not received an additional one-day bankcard training class developed
and taught by the purchase card coordinators at NIST to educate cardholders on proper use.
Additionally, no written documentation was available at NTIA to demonstrate that the
cardholders had met the training requirements. Only one employee believed that a certificate may
have been distributed at the NIST class, although that employee was not certain. While not
critical to the maintenance of internal controls, some documentation should be kept on-site at
NTIA to document that such training has been received. In its response to the draft report, NTIA
agreed that the NTIA contact point for cardholder training will maintain a listing of students to
document that all required training has been taken. We have clarified the recommendation
accordingly.




                                                 4
U.S. Department of Commerce                                                 Audit Report BTD-11549
Office of Inspector General                                                         September 1999

Recommendations

We recommend that the Assistant Secretary for Communications and Information ensures that:

1.     A needs analysis is performed by the NTIA HCO, during the next annual bankcard review,
       to determine whether the number of credit cards currently held can be reduced.

2.     Bankcards are physically secure at all times.

3.     NTIA cardholders receive all required training, and documentation of their training is
       maintained at NTIA.


Attachment


cc:    Norman L. Osinski
       Chief, Acquisition and Assistance Division
       National Institute of Standards and Technology




                                                 5
